No. 20-1786
In the

Supreme Court of the United States
JOANNE TROESCH, et al.,
Petitioners,
v.
CHICAGO TEACHERS UNION, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF IN OPPOSITION OF THE BOARD OF
EDUCATION OF THE CITY OF CHICAGO
Thomas A. Doyle
Counsel of Record
Joseph T. Moriarty
Board of Education of the
City of Chicago,
Law Department
One North Dearborn Street,
Suite 900
Chicago, Illinois 60602
(773) 553-1700
tadoyle2@cps.edu

September 27, 2021
307293

Counsel for Respondent
Board of Education
of the City of Chicago

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
When a public school employee has voluntarily joined a
teachers’ union and has signed an agreement authorizing
her employer (a public school district) to deduct union
dues from her paychecks, does the public school district
violate her First Amendment rights by making the
payroll deductions according to the terms of her written
agreement?

ii
TABLE OF CONTENTS
Page
Questions Presented  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Cited Authorities . . . . . . . . . . . . . . . . . . . . . . . .  iii
Brief in Opposition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Reasons for Denying the Petition . . . . . . . . . . . . . . . . . . . 4
1.

The ruling here is consistent with Cohen v.
Cowles Media Co., 501 U.S. 663 (1991), because
the First Amendment does not provide a
right to nullify contractual obligations  . . . . . . . . 4

2.

The ruling here does not conflict with this
Court’s decision in Janus v. AFSCME,
Council 31, 138 S. Ct. 2448 (2018)  . . . . . . . . . . . . 6

3.

The ruling here does not present a basis
for certiorari review under the other
considerations identified in Rule 10 . . . . . . . . . . . 8

4.

The ruling here does not offer a proper vehicle
to consider whether an employee may rely
on the First Amendment to void a union
dues checkoff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF CITED AUTHORITIES
Page
Cases:
Agins v. Tiburon,
447 U.S. 255 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Belgau v. Inslee,
975 F.3d 940 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . 8, 9
Bennett v. Council 31 of the AFSCME,
991 F.3d 724 (7th Cir. 2021) . . . . . . . . . . . . . . . . . . . 4, 9
Bowen v. Massachusetts,
487 U.S. 879 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Cohen v. Cowles Media Co.,
501 U.S. 663 (1991)  . . . . . . . . . . . . . . . . . . . . . . . passim
Fischer v. Gov’r of New Jersey,
842 Fed. Appx. 741 (3d Cir. 2021) . . . . . . . . . . . . . . . . 9
Hendrickson v. AFSCME Council 18,
992 F.3d 950 (10th Cir. 2021) . . . . . . . . . . . . . . . . . . . . 9
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018) . . . . . . . . . . . . . . . . . . . . . passim
Lightspeed Media Corp. v. Smith,
761 F.3d 699 (7th Cir. 2014)  . . . . . . . . . . . . . . . . . . . . . 8

iv
Cited Authorities
Page
Oliver v. SEIU Local 668,
830 Fed. Appx. 76 (3d Cir. 2020) . . . . . . . . . . . . . . . . . 9
Orgone Capital III, LLC v. Daubenspeck,
912 F.3d 1039 (7th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 7
Town of Chester v. Laroe Estates, Inc.,
137 S. Ct. 1645 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 11
Troesch v. Chicago Teachers Union,
2 021 U. S. App. LEXIS 19108 (7th Ci r.
April 15, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 10
Statutes and Other Authorities:
U.S. Const., amend. I . . . . . . . . . . . . . . . . . . . . . . . . passim
S. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 8, 10
S. Ct. R. 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
S. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
7th Cir. R. 32.1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 10
115 ILCS 5/11.1 (West 2019) . . . . . . . . . . . . . . . . . . .  10, 11

1
BRIEF IN OPPOSITION
JoAnne Troesch and Ifeoma Nkemdi are teachers at
Chicago Public Schools, employed by the Board of Education
of the City of Chicago. In 2017, Troesch and Nkemdi each
signed a written agreement to join the Chicago Teachers
Union, and that agreement authorized the Board to deduct
union dues from their paychecks (referred to as the “dues
checkoff” agreement). By signing that document, Troesch
and Nkemdi each agreed that they could change their
dues checkoff status -- that is, revoke their authorizations
for payroll deductions -- only during August of any year.
(This brief refers to that August revocation period as the
“opt-out window” in the dues checkoff agreement.)
Even though they had agreed to that process,
Troesch and Nkemdi filed a lawsuit, claiming that the
First Amendment barred the Board and the CTU from
collecting union dues from them. The district court
correctly dismissed that claim under Cohen v. Cowles
Media Co., 501 U.S. 663 (1991), finding that parties may
not assert First Amendment rights as a means to avoid
their obligations from their own agreements. The district
court also correctly found that the Board could enforce
Troesch and Nkemdi’s agreements regarding union dues
without running afoul of the decision in Janus v. AFSCME,
Council 31, 138 S. Ct. 2448 (2018). Janus decided only
whether a non-union member could be compelled to pay
union fees against his will, and Janus did not apply to
Troesch and Nkemdi’s dues agreements.
After the district court dismissed Troesch and
Nkemdi’s complaint, the court of appeals issued a nonprecedential order that summarily affirmed that dismissal.

2
Both courts’ decisions were: (i) consistent with Cohen; (ii)
not in conflict with Janus; and (iii) in harmony with the
decisions from the courts of appeals that have addressed
Janus claims involving opt-out windows. Because there
is no conflict among the courts of appeals decision on this
issue -- as explained in more detail below -- this Court
should deny the petition for a writ of certiorari.
STATEMENT OF THE CASE
The Board oversees Chicago Public Schools, and the
Chicago Teachers Union is the exclusive representative
for CPS teachers as a bargaining unit (Pet.App.5-6). The
CTU negotiates collective bargaining agreements with the
Board, framing the employment terms for thousands of
CPS teachers and other school personnel (id. at 6). Since
2015, the collective bargaining agreements have contained
an identical Section 1-6, entitled “Dues Checkoff,” which
provides that the Board “shall deduct from the pay of
each bargaining unit employee from whom it receives
an authorization to do so the required amount of fees for
the payment of [Union] dues” (id.). Section 1-6 further
states that any “bargaining unit employee may terminate
the dues check off” -- meaning the dues authorization -“during the month of August by submitting written notice
to the [Board] and the Union” (id.).
In September of 2017, JoAnne Troesch and Ifeoma
Nkemdi signed agreements to become CTU members (id.
at 7). In those documents, they agreed to the following
“Dues Authorization” procedure (id.):
“During my employment, I voluntarily authorize
and direct my Employer to deduct from my pay

3
each period, regardless of whether I am or
remain a member of the Union, an amount equal
to the dues and assessments certified by the
Union, and to remit such amount monthly to the
Union. This authorization and direction shall
become revocable by sending written notice
to the Union by United States Postal Service
postmarked between August 1 and August 31.”
That is, Troesch and Nkemdi committed to pay union dues
(via payroll deductions) and agreed that they could only
change their payroll deduction status during August at the
beginning of any school year, even if they resigned from
the CTU during another part of the year (id.).
In June of 2018, this Court issued its decision in
Janus v. AFSCME, Council 31, 138 S. Ct. 2448 (2018). In
Janus, this Court held that, under the First Amendment,
a government employer may not deduct union fees from
a paycheck for any employee who is not a member of the
union, unless that non-member employee has consented
to such a payroll deduction. Id. at 2486.
A year later -- in October of 2019, when the Board and
the CTU were negotiating over a new collective bargaining
agreement -- Troesch and Nkemdi sent letters to resign
their membership in the CTU, asking to revoke their
dues authorizations immediately (Pet.App.7-8). The CTU
responded with a letter, accepting their resignations and
explaining that their dues authorizations would continue
until the next August, which was the next opt-out window
under their written agreements (id. at 8). The Board
continued to deduct dues from their paychecks until
September 1, 2020 (id.).

4
Troesch and Nkemdi filed suit, asserting that the
Board and the CTU had violated their First Amendment
rights by deducting union dues from their paychecks until
the next opt-out window (Pet.App.5, 8-9). The district
court granted a motion to dismiss (id. at 5), holding
that the Board and the CTU did not violate the First
Amendment by following the parties’ written agreements
and waiting until an August opt-out window before making
requested changes to payroll deductions (id. at 15-17).
Troesch and Nkemdi appealed. The court of appeals
summarily affirmed the district court’s ruling (id. at 1-3).
The court of appeals noted that the parties had all agreed
that Bennett v. Council 31 of the AFSCME, 991 F.3d 724
(7th Cir. 2021), controlled the appeal (Pet.App.2). The court
of appeals’ decision was a non-precedential order, with
no accompanying opinion (id. at 1-3). See also Troesch v.
Chicago Teachers Union, 2021 U.S. App. LEXIS 19108,
*1 (7th Cir. April 15, 2021); 7th Cir. R. 32.1.
REASONS FOR DENYING THE PETITION
Most of the petition never engages w ith the
considerations governing review on certiorari, which are
set forth in Supreme Court Rule 10. As discussed below,
this Court should deny the petition.
1. The ruling here is consistent with Cohen v. Cowles
Media Co., 501 U.S. 663 (1991), because the First
Amendment does not provide a right to nullify
contractual obligations.
The district court found that Troesch and Nkemdi
had signed valid and enforceable contracts in which they

5
agreed to pay money to their union via payroll deductions,
and in which they agreed that they could only discontinue
those payroll deductions during any August (Pet.App.1516). The district court further held that Troesch and
Nkemdi did not have a claim under Janus for being forced
to pay union dues, given that they had signed a dues
checkoff agreement that governed when and how they
would pay dues to the CTU (id. at 16).
The district court’s analysis was consistent with Cohen
v. Cowles Media Co., 501 U.S. 663 (1991). In Cohen, this
Court considered whether a person could sue a newspaper
for violating a confidentiality agreement in connection with
the publication of sensitive information, even though the
newspaper cited a First Amendment right to set aside
that confidentiality agreement. Cohen, 501 U.S. at 666-67.
The Court held that the newspaper remained bound by its
confidentiality agreement under the generally applicable
laws of the state of Minnesota, and “generally applicable
laws do not offend the First Amendment simply because
their enforcement against the press has incidental effects
on its ability to gather and report the news.” Id. at 559.
Here, Cohen means that an employee may not cite
a First Amendment right as a strategy to avoid an
otherwise-enforceable obligation from her contract.
Because Troesch and Nkemdi signed contracts that
authorized union dues as payroll deductions, and because
their contracts specified how and when they could revoke
their authorizations, the Board did not offend the First
Amendment by holding Troesch and Nkemdi to those
contracts.
After applying Cohen, any remaining dispute would
turn on state contract law, not on First Amendment law.

6
For example, state law would apply to the petition’s claim
that public policy should prohibit the enforcement of any
dues checkoff agreement that contains an opt-out window
(see Pet. at 19-21). State law issues -- such as public policy
arguments under contract law -- are not proper subjects
for certiorari review. See Cohen, 501 U.S. at 671-72
(declining to decide state law questions). See also Agins
v. Tiburon, 447 U.S. 255, 259 n.6 (1980) (application of
state law is not an appropriate question for review in the
Supreme Court); Bowen v. Massachusetts, 487 U.S. 879,
908 (1988) (reciting a “settled and firm policy” of deferring
to regional courts of appeals on matters involving the
construction of state law).
Because the constitutional claims are foreclosed by
Cohen, the petition should be denied.
2. The ruling here does not conflict with this Court’s
decision in Janus v. AFSCME, Council 31, 138 S. Ct.
2448 (2018).
The petition asks for certiorari review by arguing
that the dues checkoff agreement violates Troesch and
Nkemdi’s rights, claiming that the district court’s ruling
contradicts Janus. See Pet. at 10-12. But the petition’s
analysis of Janus is incorrect, for two reasons.
First, Troesch and Nkemdi have a different union
membership status than the employee in Janus. While
Janus decided only the rights of non-union members
who had never consented to pay union fees (see Janus,
138 S. Ct. at 2486), Troesch and Nkemdi had agreed in
writing to join the CTU and to pay CTU dues. Troesch
and Nkemdi’s agreement included an opt-out window, and

7
the Janus opinion did not concern opt-out windows. See
Janus, 138 S. Ct. at 2459-86.
Second, Troesch and Nkemdi’s case involves a different
procedural posture than the petition suggests. That is,
the petition contends that a district court errs if it finds
against an employee unless it has “clear and compelling”
proof that the employee waived a constitutional right,
citing Janus, 138 S. Ct. at 2486 (see Pet. at 10-12). But
that proof-of-waiver argument has little to do with the
events here.
• Troesch and Nkemdi asserted a claim that they
were compelled to pay union dues against their will.
See Pet.App.8-9.
• But in their complaint, Troesch and Nkemdi
admitted that they signed a contract in which they:
(i) agreed to become members of the CTU; (ii)
agreed to a dues checkoff that authorized payroll
deductions for union dues; and (iii) agreed that
August was the only time in which they could revoke
their authorization for those payroll deductions
(id. at 7). The payroll deductions then happened as
authorized (id.).
• On a pleadings motion, a district court may consider
admissions from the plaintiff’s pleadings. See
Orgone Capital III, LLC v. Daubenspeck, 912 F.3d
1039, 1048-49 (7th Cir. 2019).
Thus, Troesch and Nkemdi pled themselves out of
court, because their complaint included admissions that
they were not compelled to pay union dues. They failed to

8
plead a viable claim of a compelled payment under Janus.
Because the case was dismissed on the pleadings, it did
not turn on whether any evidence on waiver was “clear and
compelling,” as the petition suggests. And, in any event, a
party’s admissions can be clear and convincing proof of a
fact. See, e.g., Lightspeed Media Corp. v. Smith, 761 F.3d
699, 711 (7th Cir. 2014).
In short, Troesch and Nkemdi’s case is not comparable
to Janus, and the district court’s dismissal did not conflict
“with relevant decisions of this Court” under Rule 10(c).
The petition should be denied.
3. The ruling here does not present a basis for
certiorari review under the other considerations
identified in Rule 10.
The petition does not identify any split in authority
regarding how Janus applies, if at all, to union members
who agree to opt-out windows in their dues checkoff
agreements. The petition does not identify any conflict
among the decisions from the courts of appeals or from
the state courts of last resort.
Indeed, no such conflict exists. The courts of appeals
have agreed that Janus does not support a union member’s
First Amendment challenge to an opt-out window in a
dues checkoff agreement. In the leading opinion on the
issue -- Belgau v. Inslee, 975 F.3d 940 (9 th Cir. 2020) -- the
court of appeals held that union members who had signed
contracts to pay union dues via payroll deductions could
not rely on Janus to claim that they had been forced
into payroll deductions. Belgau, 975 F.3d at 950-51. The
court of appeals further held that the union members

9
did not have a constitutional claim to challenge their own
contracts that included opt-out windows. Id. at 950. And
because Janus did not overrule Cohen, the court of appeals
held, the parties could not assert a First Amendment
right as a strategy to override their own contractual
commitments. Id. at 950.
Other courts have followed Belgau. In Hendrickson
v. AFSCME Council 18, 993 F.3d 950, 961 (10 th Cir. 2021),
the court of appeals enforced an opt-out window in a dues
checkoff agreement, dismissing a union member’s claim
under Janus. In Bennett, 991 F.3d at 730-31, the court of
appeals followed Belgau to dismiss an employee’s Janus
claim, focusing on the employee’s signed dues checkoff
agreement that included an opt-out window. And the
same view prevailed in two non-precedential decisions.
See Oliver v. SEIU Local 668, 830 Fed. Appx. 76, 79-80
(3rd Cir. 2020) (enforcing a dues checkoff agreement by
union members), and Fischer v. Gov’r of New Jersey, 842
Fed. Appx. 741, 753 (3rd Cir. 2021) (enforcing an opt-out
window agreement in a dues checkoff agreement). No
court of appeals has disagreed with Belgau. And no state
court of last resort has addressed the issue.
Hence, there is consensus regarding this issue,
and the district court followed that consensus when it
dismissed Troesch and Nkemdi’s complaint. See Pet.
App.13-15. Accordingly, there is no compelling reason to
review this case under Supreme Court Rule 10(a).
Finally, the petition suggests that the court of appeals
decision, if unreviewed, could impact the rights of “millions
of workers,” arguing that this case presents an important
question of federal law that requires this Court’s attention

10
under Rule 10(c) (Pet. at 21). But the court of appeals’ order
is non-precedential -- see Troesch, 2021 U.S. App. LEXIS
19108, at *1; see also 7th Cir. R. 32.1 -- which means that
the order here will not decide the rights of anyone beyond
the parties to this case. Accordingly, the order here does
not present an important question that requires review.
In Rule 10, this Court sets out the considerations
that will support review on certiorari. None of those
considerations are present in this case. The petition should
be denied.
4. The ruling here does not offer a proper vehicle to
consider whether an employee may rely on the First
Amendment to void a union dues checkoff.
Even if this Court were inclined to consider whether a
union member may somehow rely on the First Amendment
to void a dues checkoff agreement that includes an optout window, this case does not provide a proper vehicle
to reach that issue. There are several vehicle problems.
The Record. The court of appeals issued only a nonprecedential order, without ever issuing a full opinion
analyzing the issues. The parties never filed appellate
briefs on the merits. Thus, the record in this case is too
sparse to support a fulsome review on certiorari.
Section 11.1. The petition argues that this case offers
an opportunity to review the constitutionality of Section
11.1 of the Illinois Educational Labor Relations Act, 115
ILCS 5/11.1 (West 2019), which covers dues checkoffs in
Illinois public schools (see Pet. at 4, 5, 16, 26). But this case
is not a proper vehicle to review that statute. The district

11
court dismissed the complaint but specifically refused to
decide any issue under Section 11.1 (see Pet.App.9 n.3).
The court of appeals also did not decide any issue under
Section 11.1 (see id. at 1-3). That should counsel strongly
against using this case to review Section 11.1. See Town
of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1652 n.4
(2017) (given “the lack of a reasoned conclusion on this
question from the Court of Appeals, we are not inclined
to resolve it in the first instance.”).
Consent. Although the petition purports to seek
review of whether the First Amendment protects union
members from being forced to pay union dues, Troesch
and Nkemdi are not proper candidates to test that claim.
Troesch and Nkemdi were never forced to pay union dues.
That is:
• Troesch and Nkemdi signed CTU membership
agreements in 2017, authorizing payroll deductions
for union dues and agreeing to an August opt-out
window for when they could discontinue those
deductions (Pet.App.7).
• Janus was decided in June of 2018, but Troesch and
Nkemdi did not try to withdraw their consent until
October of 2019 (id. at 7-8).
• And although Troesch and Nkemdi resigned from
the CTU in October of 2019, they had previously
agreed in writing that the August opt-out window
rule would apply to them even after they resigned
from the CTU (id. at 7).

12
In short, Troesch and Nkemdi incurred payroll
deductions pursuant to their own consent, and that consent
was reflected in their written agreements. This case does
not involve involuntary payroll deductions. The supposed
First Amendment claim does not fit these facts.
For all of these reasons, this case is not a proper
vehicle to address the First Amendment issues raised in
the petition.
CONCLUSION
This Court should deny the petition for a writ of
certiorari.
Respectfully submitted,
Thomas A. Doyle
Counsel of Record
Joseph T. Moriarty
Board of Education of the
City of Chicago,
Law Department
One North Dearborn Street,
Suite 900
Chicago, Illinois 60602
(773) 553-1700
tadoyle2@cps.edu
Counsel for Respondent
Board of Education
of the City of Chicago
September 27, 2021

